                                                                                                                       p.5




(
                                   NATIONAL RAILR OAD PASSENGER CORl' ORAT lON
                                          OIIIIICE OF INSPE CTOR GENE RAL
                                            OFFIC E OF INVESTIGATIONS
                                         INVES TIGAT IVE CLOSING RM'O RT

          TITLE :               Waste                                                   CASE NUMllEH: 08·094
          DATE OF REPO RT:      ~' . ~
          REPO RT PREPA RED BY: _     S N _ , SA
          1. FINDINGS OFl"A CT AND RI~COMMENDAT10NS

         A. FINDI NGS 011 FACT
                                                                                                .<
         1.     The Office of Inspector General (,,010"), Officc of Investigations ("or")
                                                                                           received information
                alleging that Amtrak paid food Ilnd lodging expenses for ten Chicago,
                                                                                        Illinois ("CHI") based
                employces attending Train Director ("TIY') training classes in CHI from                                      .-
                                                                                        July 21, 2008 tlU'OUgll
                September 19, 2008. Allegedly, Amtrak paid $58,000 in food and lodgin
                                                                                          g expenses fot· thesc
                employees, even though tllc employees rcsided ill the CHI area.

      2.


      3.
               ~
               ~,
                                       or issued a Referral to  Managcment to
                                        for handling or investigation of the

               On September 2, 2009, 01 received a response frolll
               employees had been lodged at the hotel during
                                                                                                              -
                                                                                     Exhibit 2) indicating that the
                                                                              to, "Avoid the stress and personal
               distraction that being at home clln create." or deemed this responso insuffic
                                                                         -                  ient.
                                                                                    ,

     4.        01 obtained and reviewed the invoices /1-011l the hotel at which the employ
                                                                                             ees stayed; as well as
               payroll records reflecting the amount of daily Illeal allowances eaell employ
                                                                                             ee received. 01 tOUJld
               that Amtrak paid a total of $75,627.65 in hotel room and meal expenses
                                                                                          fol' the employees while
               they attended the TD training. 01 verified that the employees lodged at
                                                                                           the hotel during the 'I'D
               tmining lived in the CHI aren, and interviewed each employee that had attende
                                                                                                d tile training.
     5.       Oll March 3 2009 01 issued an Administrotive Report to
                                                                                                              _
              1II iiiii iiiii ii, detailing tlmt Amtrak had paid tor                ·                       during
              ~ekcnds, even though the employees lived in the CHI area (See
                                                                                                        Exhibit 3).
              O\'s report also disclosed that the TD trainees did not stay in their
                                                                                      hotel rOOllls a total of 119
              nights, and that Amtrak paid $13,798.18 for these ulloccupied hotelroolllS

    6.        On April 14, 2009,01 received a response for_i ndica ting thnt he took
                                                                                          no exceptions to the
              findings or presented to him.       indicated that he had directed staff not to allow employees
              who normally commute ' to u training location to be provided ovcl1lig
                                                                                       ht lodging, except for
              c.xtrelllely rare circumstances.

    D. RECO MMEN DATIO NS

     1. Close case.

    Chief IuspcctOl': _ _ _ _ _ _ _ _ __ _ _ _"-_Datc:


    Deputy Inspcc tor GCllcl'lIJlCounsci:
    Closillg reJlOlt 08·094.docL
